                                  Management Letter 11-21

                Subcontract Cost Submitted by a NARA Prime Contractor

Pursuant to a request from NARA contract officials we audited subcontract costs submitted by a
NARA prime contractor to determine if there was sufficient supporting documentation; and
whether the subcontract costs submitted by the prime contractor and paid by NARA were
accurate, supported, and allowable. We questioned the entire amount of $3,970,827.24 of
subcontract cost submitted because the costs were unsupported. Despite numerous requests the
subcontractor failed to provide documentation sufficient for performing a contract review in
accordance with government audit policy and standards.
